Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Edward McCain v. United States of America,
S.Ct. No. 20-7410
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 8, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7410
MCCAIN, EDWARD
USA

ERIC JOSEPH BRIGNAC
ASSISTANT FEDERAL PUBLIC DEFENDER
150 FAYETTEVILLE STREET
SUITE 450
RALEIGH, NC 27601
919-856-4236
ERIC_BRIGNAC@FD.ORG

